No.

IN THE
SUPREME COURT OF THE UNITED STATES

Cedric Jones Sr—PETITIONER

vs.
Judge Waverly D. Crenshaw Jr.; SOLICITOR GENERAL OF THE UNITED STATES;

PROOF OF SERVICE
*///*/

I, Cedric Jones Sr, do swear or declare that on this date
20

as required by Supreme Court Rule 29 I have served the enclosed MOTION FOR

LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI
on each party to the above proceeding or that party's counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class postage prepaid, or
by delivery to a third-party commercial carrier for delivery within 3 calendar days. The names
and addresses of those served are as follows:
(1) OFFICE OF THE CLERK, SUPREME COURT OF THE UNITED STATES,
WASHINGTON, D.C. 20543-0001
(2) Solicitor General of the United States, Room 5616, Department of Justice, 950
Pennsylvania Ave, N.W. Washington, DC 20530-001
3) Chief Dist. Judge Waveriy D. Crenshaw Jr.
US Cthse Rm A845
801 Broadway
Nashville, TN 37203-3816
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

/fyyt//
(Signature)

